<html>
<title> - THE BEST AND WORST PLACES TO WORK IN THE FEDERAL GOVERNMENT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


      THE BEST AND WORST PLACES TO WORK IN THE FEDERAL GOVERNMENT

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         GOVERNMENT OPERATIONS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 27, 2016

                               __________

                           Serial No. 114-65

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                              ____________
                              
                              
                       U.S. GOVERNMENT PUBLISHING OFFICE
20-557 PDF                  WASHINGTON : 2016                       
 ________________________________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
 http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
 U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
 E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7b1c0b143b180e080f131e170b5518141655">[email&#160;protected]</a>  

 
              
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                 David Rapallo, Minority Staff Director
                       Janelle Fitzhugh, Detailee
               Katie Bailey, Subcommittee Staff Director
                          William Marx, Clerk
                                
                                
                              ---------                                

                 Subcommittee on Government Operations

                 MARK MEADOWS, North Carolina, Chairman
JIM JORDAN, Ohio                     GERALD E. CONNOLLY, Virginia, 
TIM WALBERG, Michigan, Vice Chair        Ranking Minority Member
TREY GOWDY, South Carolina           CAROLYN B. MALONEY, New York
THOMAS MASSIE, Kentucky              ELEANOR HOLMES NORTON, District of 
MICK MULVANEY, South Carolina            Columbia
KEN BUCK, Colorado                   WM. LACY CLAY, Missouri
EARL L. ``BUDDY'' CARTER, Georgia    STACEY E. PLASKETT, Virgin Islands
GLENN GROTHMAN, Wisconsin            STEPHEN F. LYNCH, Massachusetts
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 27, 2016...................................     1

                               WITNESSES

Ms. Lauren Leo, Chief Human Capital Officer, National Aeronautics 
  and Space Administration
    Oral Statement...............................................     5
    Written Statement............................................     8
Ms. Angela Bailey, Chief Human Capital Officer, U.S. Department 
  of Homeland Security
    Oral Statement...............................................    14
    Written Statement............................................    16
Ms. Sydney Rose, Chief Human Capital Officer, U.S. Department of 
  Labor
    Oral Statement...............................................    19
    Written Statement............................................    21
Ms. Towanda Brooks, Chief Human Capital Officer, U.S. Department 
  of Housing and Urban Development
    Oral Statement...............................................    27
    Written Statement............................................    29
Mr. Max Stier, President and CEO, Partnership for Public Service
    Oral Statement...............................................    32
    Written Statement............................................    34

 
      THE BEST AND WORST PLACES TO WORK IN THE FEDERAL GOVERNMENT

                              ----------                              


                       Wednesday, April 27, 2016

                  House of Representatives,
             Subcommittee on Government Operations,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:03 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Mark Meadows 
[chairman of the subcommittee] presiding.
    Present: Representatives Meadows, Jordan, Walberg, 
Mulvaney, Buck, Carter, Grothman, and Connolly.
    Mr. Meadows. The Subcommittee on Government Operations will 
come to order. And without objection, the chair is authorized 
to declare a recess at any time.
    After a downward trend for the last few years, the results 
of the Federal employees' survey sent to some 840,000 Federal 
employees reveals a 1 percent increase in both employee 
engagement and global satisfaction scores. And of that number, 
nearly 421,000 people replied, and this data was sorted by OPM 
to provide a number of useful metrics, some that are quite 
encouraging. For example, 96 percent of Federal employees 
surveyed are willing to put in the extra effort necessary to 
get the job done. Ninety percent are consistently looking for 
ways to do better and feel that the work that they do is 
important.
    And I must stress that, as I have talked to Federal 
employees, that this does not come as a surprise to me, and it 
is something that we need to do a better job in Congress of 
sharing with the American taxpayer that we have committed 
Federal employees.
    Yet some employee perceptions--and I am sad to say 
perceptions by some in Congress--of agency leadership continue 
to struggle. Only 50 percent of employees had positive things 
to say about the honesty and integrity of their leadership. 
This should remain as a concern for agency leaders with 
managing our nation's more than 2 million public servants.
    And in the area of promotions and dealing with poor 
performers, survey results are even more alarming. Only 33 
percent of the workers agreed with the statement that 
promotions in their work unit are based on merit. Twenty-eight 
percent of the employees said that the necessary steps are 
taken to deal with poor performers. And only 21 percent of 
employees across the government said that pay raises depend on 
how well the employees perform their jobs.
    So over the past year, I have had the pleasure and honor of 
visiting numerous Federal agencies, the most recent just a 
couple of days ago, across the Washington, D.C., area. I have 
had the opportunity to discuss a variety of topics with Federal 
employees, including employee engagement and satisfaction. I 
have met with Federal employees from NASA, the GAO, the 
Archives, MSPB, CBP, Air and Marine Operations, and I have 
always enjoyed it and appreciated the opportunity to visit with 
our Federal workforce.
    This week, as I was just mentioning, I was able to visit 
the Air and Marine Operations Manassas air branch, where I had 
the opportunity to meet and speak with AMO pilots and those 
that serve in that capacity, as well as serve the operation. I 
was highly impressed not only by their commitment to serving 
and protecting the American people, but I also wanted to thank 
them for sharing more with me about their mission because it 
was one of those things a lot of people don't know about, even 
Members of Congress. And so today, we are joined by a number of 
agencies near the top and bottom of the Best Places to Work 
rankings, as well as the most-improved agencies from 2015.
    NASA has ranked number one for large agencies in the Best 
Places to Work ranking for the past 4 years with an index score 
of 76.1 out of 100. Congratulations. Last year, I had the 
opportunity to not only meet with employees at NASA, enjoying 
that visit with staff and learning more about the mission and 
vision. I would like to hear more about NASA's employee 
engagement efforts undertaken at the agency that allows them to 
remain at the top of the rankings.
    The Department of Homeland Security, who also joined us 
last year, continues to remain last in the rankings with an 
index score of 43.1 out of 100. DHS has ranked 19 of 19 in 
large agencies on factors such as effective leadership, 
fairness, empowerment, and skills to match the mission.
    As many of you know, we have had Secret Service hearings. I 
have had a number of Secret Service employees who have reached 
out to me personally about just concerns that they have had, 
and the Secret Service employees rank their workplace as 319th 
out of 320 in the agency's subcomponent.
    Additionally, Immigration and Customs Enforcement ranked 
318 out of 320. Both of those areas have been areas that we 
have addressed in this particular committee, and I am hopeful 
that we will be able to discuss those today, Ms. Bailey, as we 
look at DHS to have a plan to take ownership to ensure that its 
employees are engaged and how DHS plans to improve the employee 
satisfaction and commitment at the agency.
    The Department of Labor is the most-improved large agency 
for 2015 with an index score of 63.1 out of 100. DOL has 
improved from 17th in the 2013 Best Places to Work to a ranking 
of 8th in 2015. So congratulations.
    HUD is the most-improved midsize agency for 2015 with an 
index score of 52.3 out of 100, and HUD is ranked 21st out of 
24 for midsize agencies, and had an 8 point increase in their 
index score.
    For both DOL and HUD, I hope to hear about some of the 
initiatives that your agencies have undertaken that has led to 
the significant increase in the employee satisfaction and 
commitment. Obviously, the Partnership for Public Service also 
joins us today, perhaps can share some of your observations on 
employee engagement and offer some suggestions for agencies to 
improve the employee engagement efforts.
    Before I close, I wanted to also mention at the last 
hearing there were two different things that came out of that. 
We had different people testifying. The Archive, as I talked to 
him the other day, he mentioned a 4 point increase in their 
score that they are paying attention to. We are paying 
attention to this in a bipartisan way.
    The other thing that came out with Secretary Johnson, we 
had the title of this was ``The Worst Places to Work in the 
Federal Government,'' and he admonished me both privately and 
publicly that we ought to change the title of that. So indeed, 
we have listened to that and have changed the title, but I also 
want to stress today that the fact that you are here as 
witnesses and joining us here today is an important part of 
making sure that we address the concerns that have been raised 
by the rank-and-file. And I want to thank you for that.
    Mr. Meadows. And with that, I would like to recognize the 
ranking member of the Subcommittee on Government Operations, my 
good friend, Mr. Connelly, for his opening statement.
    Mr. Connelly. Thank you so much, Mr. Chairman. And I can 
only imagine with others what the change of title might have 
been, so maybe we are lucky with the title we had.
    Employee engagement plays an important role in agencies' 
mission success. The more employees are engaged, the more 
invested in the operation and productive they become.
    As the subcommittee charged with oversight of government 
operations, it seems to me we should be encouraging such 
engagement to ensure that the Federal workforce is motivated to 
deliver quality services for our constituents just as we do in 
the private sector.
    Today's hearing brings together a range of agencies, those 
with the highest and lowest scores, as well as those most 
improved, as you indicated, Mr. Chairman. 2015 rankings show 
signs of improvement with 70 percent of agencies improving 
their satisfaction and commitment scores. That is a welcome 
turnaround from the 43 percent comparable figure in 2014 and 
the mere 24 percent in 2013.
    However, obviously, there is always room for improvement. I 
am encouraged by the 2015 government-wide result showing a 1.2 
point increase from 2014. This is the first increase following 
4 straight years of decline since 2010.
    It is about time we see some positive signs, and I am 
hopeful maybe the tide is turning. Not only did employee 
satisfaction improve, but so did scores in all 10 workplace 
categories such as effective leadership, employee skills, and 
agency mission matches, pay, teamwork, training, development, 
and work-life balance.
    We all congratulate NASA, which again ranks number one 
among large agencies for the 4th year in a row. Its successful 
record of fostering employee engagement is credited to matching 
employee skills with agency mission, fostering teamwork and 
innovation, and satisfaction with pay. And I am going to be 
particularly interested, Max, in your analysis of that and 
yours as well. But how much of that is the mission that just 
elevates, whistling when I go to work every day? Because other 
agencies can't compete with that if that is the dispositive 
factor. But it is worthy of some examination.
    The Department of Labor is once again the most-improved 
large agency. This can be attributed in part to new workplace 
flexibility and telework initiatives. As the co-author of the 
telework legislation back in '09, '10, I am delighted to hear 
that. Expanding the use of telework has been such an important 
part of trying to improve actually workplace productivity and 
morale. So congratulations on taking advantage of the Telework 
Enhancement Act, which requires all agencies to incorporate 
telework into their Continuity of Operations plan.
    The Department of HUD is the most-improved midsize agency, 
and I am pleased to see Secretary Castro utilizing innovative 
online communication tools and town hall meetings to solicit 
employee feedback.
    Unfortunately, the Department of Homeland Security 
continues to struggle with employee morale and satisfaction, 
but I want to make clear that the purpose of this hearing is 
not to browbeat. We want to better understand and see what we 
can do to try to help.
    We must remember that DHS was created under the most 
intense pressures following 9/11 and combined all or part of 22 
Federal agencies under one roof with the incredibly difficult 
mission of protecting the American people from a variety of 
threats. As the newest Cabinet level agency, DHS continues to 
experience growing pains and in some cases the lack of logical 
glue for why something fits within DHS, or at least arguably 
so. So obviously we want to learn a lot more today about the 
recently created Employee Engagement Steering Committee and how 
it might help.
    It is our hope that we use today's hearing to better 
understand the challenges you all face and to identify best 
practices that could be helpful to improve employee engagement. 
I thank the partnership for its work. These rankings in the 
Office of Personnel Management's Federal Employee Viewpoint 
Survey, upon which they are based, are very powerful tools and 
again often used in the private sector as well.
    Mr. Chairman, employee engagement is not an issue about 
which only agencies need to be concerned. Congress also has a 
vested interest in the satisfaction of Federal employees as we 
are their employer. And I want to commend you for your efforts 
to visit Federal agencies to hear employee concerns firsthand. 
I, of course, do that going home every night. But really, you 
have done a great job in making that part of your mission so 
that you are getting firsthand evidence and information, and 
sometimes that changes our perspective and our opinion. And 
Chairman Meadows deserves great credit for doing that.
    I am also heartened by the progress made. We must not 
forget the tremendous difficulty that Federal employees have 
faced over the last few years. Sequestration cuts imposed by 
Congress caused nearly 1 million Federal employees, 1 million 
to be furloughed for some time, and the uncertainty and anxiety 
that created.
    A budget standoff led by some in this body forced a 16-day 
government shutdown in 2013, the first in 17 years. Federal 
employee pay was frozen 3 consecutive years, retirement 
benefits were reduced for new employees, and training budgets 
were slashed. In all, Federal employees were hit with more than 
$180 billion in compensation cuts, the only group of Americans 
targeted by Congress to contribute to deficit reduction 
explicitly. So it should come as little surprise that Federal 
employees during that time period were feeling unappreciated 
and often demoralized. As Congress prepares for the annual 
appropriation process to fund the government, let's learn from 
the painful experience of recent history.
    I would like to remind everyone that next week is Public 
Service Recognition Week. I feel that Congress should give 
Federal employees credit and recognition for the incredible 
work they do day in and day out serving the American people, 
our constituents.
    So as we approach Public Service Recognition Week, let's 
commit to engaging in fairly compensating our dedicated public 
employees to ensure that the Federal Government continues to 
provide the critical programs and services upon which the 
American people depend.
    Thank you, Mr. Chairman. I look forward to the testimony.
    Mr. Meadows. I thank the gentleman for his kind remarks, 
and I will keep the record open for 5 legislative days for any 
member who would like to submit a written statement.
    We will now recognize our panel of witnesses. I am pleased 
to welcome Ms. Lauren Leo, chief human capital officer at the 
National Aeronautics and Space Administration; Ms. Angela 
Bailey, chief human capital officer at the U.S. Department of 
Homeland Security; Ms. Sydney Rose, chief Human Capital Officer 
at the U.S. Department of Labor; and Ms. Towanda Brooks, chief 
human capital officer at the U.S. Department of Housing and 
Urban Development; and Mr. Max Stier, President and Chief 
Executive Officer of the Partnership for Public Service, of 
whom a lot of this actually started in an in-office visit with 
me many months ago. Welcome to you all.
    And pursuant to committee rules, all witnesses will be 
sworn in before they testify, so if you would please rise and 
raise your right hand.
    [Witnesses sworn.]
    Mr. Meadows. All right. Let the record reflect that the 
witnesses answered in the affirmative. Thank you. You may 
please be seated.
    In order to allow time for discussion, I would ask that you 
would limit your oral testimony to 5 minutes, that your entire 
written statement will be made part of the record.
    And so without objection, we will go ahead and start. Ms. 
Leo, you are recognized for 5 minutes.

                       WITNESS STATEMENTS

                    STATEMENT OF LAUREN LEO

    Ms. Leo. Chairman Meadows and members of the subcommittee, 
thank you for the opportunity to appear before you today on the 
topic of the 2015 Best Places to Work in the Federal 
Government.
    Today, I'd like to share with you what makes NASA such a 
great place to work, as well as what we've learned along the 
way about employee engagement and using the Federal Employee 
Viewpoint Survey result as a mechanism to continually improve 
NASA's work environment.
    First, I have to admit that I have one of the best jobs in 
the world. My job is to care for and support the agency's most 
valuable asset, our amazing workforce, the brilliant rocket 
scientists, innovative engineers, dedicated support and 
administrative professionals, and every employee and contractor 
that make up the NASA family.
    I work for an agency that inspires, challenges, and 
empowers our employees daily to carry out missions that benefit 
us here on Earth. I feel extremely fortunate to wake up every 
morning to serve NASA's employees who are truly a tremendous 
asset to our country and the world.
    Given that NASA is strongly mission- and project-focused, 
our employees believe in the importance of the mission and are 
heavily engaged in their work. They come to work at NASA 
because they want to be part of something bigger, not just 
because it's a job.
    Every NASA employee impacts the agency's mission daily, no 
matter his or her pay grade or area of expertise. NASA's 
employees consistently cite shared values, shared commitment to 
the mission, and loyalty to the agency as reasons why they feel 
positively engaged in their jobs. This sense of belonging fuels 
a deep sense of community at NASA, and this begins at the top. 
Administrator Charlie Bolden fundamentally believes that his 
communication is a cornerstone to connecting employees to 
NASA's mission, and he never misses an opportunity to tell 
employees that their work is important.
    Because our employees feel connected to the mission and to 
each other, we have a very positive work culture with a high 
level of employee engagement. But we are not satisfied with the 
status quo, and we are constantly searching for better ways to 
work.
    The health of our workforce is a top priority for NASA 
leadership. Our leadership pays attention to the Federal 
Employee Viewpoint Survey data and other indicators to monitor 
the state of the agency and to develop strategies for 
continually improving employee engagement, connection, and 
effectiveness.
    NASA believes that leaders and particularly supervisors 
play a unique role in creating a positive work environment for 
employees, so we continue to invest in a number of leadership 
development programs and activities across the agency from 
early career to executive, better designed to better equip 
current and future agency leaders to carry out our mission.
    While our 2015 survey results were extremely positive, we 
observed a few areas where we can continue to improve. In 
particular, we are currently working to improve the experience 
across our geographically dispersed centers so that we can 
close the gap on how employees feel they are valued and 
recognized. We also want to continue to focus on improving in 
areas where we've made progress such as innovation and 
performance management.
    Additionally, as part of the broader Federal Government 
community, NASA believes that we need to work together to 
leverage what's working across all Federal Government agencies. 
To that end, we are working with the Partnership for Public 
Service to find new and innovative ways to share promising 
practices across Federal agencies and to develop solutions that 
demonstrate how agencies can take action on those promising 
practices.
    In summary, NASA employees raise the bar of human 
achievement every day. They are passionate and dedicated men 
and women who overcome the huge challenges of exploring space 
and improving life on Earth. This is a workforce that is 
dedicated to ushering in the future of our nation, including 
developing new technologies with the goal of one day landing 
humans on Mars. NASA's employees are building a brighter future 
for us all and are extremely proud to be part of the NASA 
family.
    In my role, I am very privileged to have regular 
conversations with the many men and women who support and 
enable NASA's mission. We talk about what inspires them to show 
up to work every day, what commits them to stay engaged 
throughout their careers, and what new challenges they are up 
against. These people are NASA's most valuable asset and my 
number one priority. That is why I am proud of NASA's robust 
strategy to engage our workforce and create a culture of 
innovation. When I am asked why NASA is such a great place to 
work, I say it's about our people. Without them, nothing would 
be achieved.
    Mr. Chairman, thank you for the opportunity to appear 
before you today to share the story of NASA's workforce. I will 
be pleased to answer any questions you may have.
    [Prepared statement of Ms. Leo follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Meadows. Thank you, Ms. Leo.
    Ms. Bailey, you are recognized for 5 minutes.

                   STATEMENT OF ANGELA BAILEY

    Ms. Bailey. Thank you. Chairman Meadows, Ranking Member 
Connolly, and members of the subcommittee, thank you for the 
opportunity to appear before you today to address our efforts 
to enhance employee engagement at DHS.
    I joined DHS in January of this year as a career Federal 
executive with nearly 35 years of service. Most of those years 
have been spent in human resources in the field and at agency 
headquarters. I'm responsible for the Department's overall 
human capital program, including providing human resource 
solutions for DHS headquarters employees.
    My office also supports employee engagement efforts led by 
the Secretary and Deputy Secretary. In fact, in my discussions 
with DHS prior to even coming on board and taking this job, the 
Under Secretary for Management made it very clear that employee 
engagement was a top priority for the Secretary and the 
Department, as a whole, and as you can imagine, it is also one 
of my top priorities.
    DHS is a large and complex agency that holds an 
extraordinary set of missions. Our employees, many of whom are 
on the frontlines, conduct difficult work under challenging 
circumstances.
    Recently, the Secret Service successfully protected 32 
heads of state during the 2016 Nuclear Security Summit in 
Washington, D.C.
    Transportation security officers discovered 58 firearms in 
carry-on bags around the Nation just last week, 49 of which 
were loaded, and 20 had a round chambered.
    The Coast Guard safely returned more than three dozen 
migrants found drifting in the Caribbean back to Cuba.
    The Immigration and Customs Enforcement officers, Customs 
and Border Protection officers, and Border Patrol agents and 
their partner agencies seized more than a ton of marijuana in a 
tunnel connecting California with Mexico. These are only a few 
examples.
    Clearly, DHS personnel, including those who provide 
critical assistance behind the scenes, do amazing work, are our 
greatest strength, and deserve all the support that we can give 
them.
    In my short time at DHS, I can tell you that from the top 
to the bottom, this department is laser-focused on supporting 
our workforce so that they can accomplish their missions. 
Engagement is a mission-critical leadership issue. I have seen 
firsthand how engaged our leaders are in embracing our 
workforce, and it is clearly a top priority.
    I was also encouraged to see that two of our components--
Coast Guard and Citizenship and Immigration Services, with a 
combined total of 22,000 civilian employees--consistently score 
above the government-wide average on the Federal Employee 
Viewpoint Survey. We are leveraging their successful practices 
across the Department.
    The Secretary, Deputy Secretary, and the Under Secretary 
for Management have conducted numerous town halls across the 
country, thanking employees for their service, recognizing 
achievements, responding to questions, and receiving direct 
feedback on how we can improve our policies, our services, our 
operations, and even our opportunities for our employees.
    Both the Secretary and the Deputy Secretary have also 
employed ``undercover boss'' experiences to literally walk in 
the shoes of frontline employees and show their respect and 
appreciation for the tough jobs that they perform daily.
    DHS component leadership has also reached out directly to 
their employees during town halls. They have implemented crowd-
sourcing idea-gathering. They have developed DHS-wide and 
component-specific leadership development to all levels of 
leadership.
    Since last year's testimony on this issue, we have 
accomplished quite a lot, including this year for the first 
time actions plans were signed by component leadership and 
submitted to the Under Secretary ensuring senior leaders' 
commitment and support.
    The Under Secretary and I are also working with 
representatives from all of the components through our Employee 
Engagement Steering Committee to ensure implementation of their 
plans and to share lessons learned and successful practices.
    A new department-wide employee engagement action plan, 
reflecting input from across DHS has three major focus areas: 
selecting and empowering high-performing leaders, developing 
excellent leaders at all levels, and enhancing communications. 
This has led to the deployment of new initiatives, including 
behavioral interview questions for all senior leadership 
positions ensuring we hire high-performing and engaged leaders, 
an online leadership resource center, which provides guidance 
and resources for all of DHS leaders covering a number of 
areas, including innovation toolkits, how to conduct meaningful 
town hall meetings, and stay interviews; and finally, 
accountability for SES with an engagement element added to our 
2016 SES performance plans.
    In addition, we're working with components to encourage 
employees to participate in the upcoming survey through 
messaging that states how feedback leads to ideas, and ideas 
leads to change, and change then leads to a more engaged 
workforce and increased morale.
    Every day, the men and women of DHS carry out difficult and 
dangerous work that is often unseen by the American public. 
They do an outstanding job and have a deep commitment to the 
mission. Through our efforts dedicated to employee engagement, 
we are determined to enhance their work experience and honor 
the contributions of our hardworking and dedicated workforce.
    Thank you again for supporting our employees, who protect 
us and our great Nation.
    [Prepared statement of Ms. Bailey follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Meadows. Thank you, Ms. Bailey.
    Ms. Rose, you are recognized for 5 minutes.

                    STATEMENT OF SYDNEY ROSE

    Ms. Rose. Thank you so much. Good afternoon, Chairman 
Meadows, Ranking Member Connolly, and the distinguished members 
of the subcommittee. Thank you so much for the opportunity to 
participate in today's hearing.
    As the chief human capital officer for the United States 
Department of Labor, it is my privilege to report on the 
Department's climb in Best Places to Work rankings and to share 
our efforts of the past few years.
    In 2015, the Labor Department ranked 8th best place to work 
in the Federal Government. This was an improvement over our 
2014 ranking where we finally broke into the top 10. The 
Department received recognition from the Partnership for Public 
Service for receiving the most-improved scores for 2014 and 
2015. This was an incredible accomplishment for us.
    Our ranking and survey results have dramatically improved 
since 2013. Nearly 70 percent of the Department's sub-agencies 
improved in their 2015 rankings, and in fact, the Department's 
Bureau of International Labor Affairs was recognized as the 
most-improved subcomponent, having improved its ranking by an 
incredible 165 places.
    Secretary Tom Perez has made improving employee morale and 
engagement a top priority since the minute he arrived at the 
Department of Labor, and he has continually reinforced his 
commitment towards building a better DOL through employee input 
and feedback. He came to the Department with the belief that an 
engaged workforce is a more productive workforce. Virtually all 
communications from the Secretary's office now reinforce his 
commitment to and the importance of employee feedback.
    With his vision and well-communicated interest in improving 
workforce engagement, he appointed his deputy chief of staff, 
several members of the Secretary's office, and myself to lead 
employee engagement efforts. The team continues to meet weekly 
to discuss progress with regard to communications and various 
workplace initiatives and provides regular briefings to DOL 
leadership on a variety of workforce initiatives.
    One of the most important strategies was for the Department 
to improve our response rates. In 2013 the Department's 
response rate was 44.7 percent. In 2014, we increased to 71.7 
percent, and unbelievably, in 2015 we increased further to 76.5 
percent. To improve response rates, we sent out communications 
to employees throughout the year informing them how the survey 
was being used to implement changes.
    During the survey period, we sent frequent reminders from 
the Secretary, Deputy Secretary, and DOL senior officials 
reminding them of the importance of the survey. We also used 
regularly scheduled meetings to remind agency leadership to 
encourage their employees to participate.
    Beginning in the summer of 2013, we conducted extensive 
data analysis and research, which included interviews with 
other agencies such as the Departments of Transportation and 
Justice in hopes of identifying strategies that we could 
consider and implement. Our efforts also focused on our labor-
management relations. We worked closely with our labor unions 
to implement important workplace flexibilities and to develop 
and project positive workplace behaviors. Where possible, we 
tried to obtain pre-decisional input and engage in informal 
dispute resolution, as well as to utilize labor-management 
forums. In March, unions representing DOL employees were even 
invited to submit survey questions, eight of which we have 
included in this year's Federal Employee Viewpoint Survey.
    In addition, we've worked to increase communication across 
the Department. We've held numerous town hall meetings and 
listening sessions and have visited all of DOL's regional 
offices. Employee questions are invited in advance and during 
the meetings. Electronic suggestion boxes are implemented, and 
we have even replaced those boxes now with IdeaMill, which is 
an electronic suggestion box and crowd-sourcing tool.
    Based on employee feedback we've received, we've 
implemented a number of new initiatives at the Department of 
Labor. We have a new policy that allows up to 40 hours of duty 
time for employees to participate in management-improved 
professional development activities. We created the ROAD 
program, which stands for Repository of Opportunities, 
Assignments, and Details. This allows managers to post 
opportunities that can be short-term and allow employees to 
apply.
    It goes without saying our civilian workforce is our 
greatest asset, and we continually strive to increase their 
engagement. We welcome your questions.
    [Prepared statement of Ms. Rose follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Meadows. Thank you, Ms. Rose.
    Ms. Brooks, you are recognized for 5 minutes.

                  STATEMENT OF TOWANDA BROOKS

    Ms. Brooks. Chairman Meadows, Ranking Member Connolly, and 
members of the subcommittee, thank you for the opportunity to 
appear before you today to testify on behalf of the Department 
of Housing and Urban Development regarding the Best Places to 
Work in the Federal Government.
    I became the chief human capital officer for the Department 
of Housing and Urban Development in 2015 and have been a member 
of the Senior Executive Service since May 2009. As CHCO, I lead 
HUD's Office of the Chief Human Capital Officer and oversee 
implementation of the Department's human capital management 
strategies, policies, and initiatives in support of HUD's 
mission.
    HUD's mission is to create strong, sustainable, inclusive 
communities and quality affordable homes for all. It is our 
nearly 8,000 employees who carry out the Department's mission 
on behalf of millions of hardworking American families in all 
50 states, the District of Columbia, U.S. territories and the 
four insular areas every day.
    The link between an employee's engagement and mission 
accomplishment is well documented in private and public sector 
research, as well as in HUD's own experience. When we use 
employee engagement as a measure of success for the Department, 
we make HUD a better workplace and in turn improve outcomes for 
the American people.
    The best available measure for employee engagement in the 
Federal service is the Federal Employee Viewpoint Survey. In 
2015, HUD was recognized by the Office of Personnel Management 
as the most-improved agency for employee engagement and by the 
Partnership for Public Service as the most-improved midsized 
agency on their annual Best Places to Work in the Federal 
Government index.
    The Department improved its EVS scores on 69 out of 71 
questions, with an average increase of nearly 5 percentage 
points. Two indicates significant movement. Notably, our 
employee engagement score rose to 61.8 percent, HUD's second-
highest mark since OPM began keeping records and just short of 
our all-time high in 2012.
    HUD also was the most-improved agency in the government on 
the ``New IQ,'' a measure of workplace inclusion and 
empowerment. HUD increased a full 5 points, while the 
government overall only increased 1 point. Employees ranked 
their leaders and supervisors 6 percent and 5 percent higher 
than the prior the year, and their overall view of their jobs 
improved 5 percent.
    And a record number of employees filled out the survey. HUD 
achieved its highest participation rate on record, as 74 
percent of its employees took the survey. In 2014, HUD's level 
of participation was just 51 percent.
    HUD's improved employee engagement scores are due in large 
part to the commitment made by HUD's most senior leaders. 
Secretary Castro and Deputy Secretary Coloretti have made 
employee engagement a sustained priority, and they have shown 
employees that their feedback is taken seriously. The Secretary 
and Deputy Secretary placed a strong emphasis on responding to 
employees' requests through HUD's internal social media tools, 
including HUDConnect, which provides ways to directly solicit 
and receive employee feedback. They also prioritize meeting 
with employees in HUD headquarters and in its regional and 
field offices and through regional town halls. In addition, the 
Deputy Secretary is carrying out an ambitious management agenda 
through a series of collaborative deep-dive projects aimed at 
strengthening the Department.
    We also attribute HUD's increase in employee engagement to 
proactively sharing the 2014 and 2015 EVS results with 
employees. We provided opportunities to all HUD employees to 
access and interpret the EVS results. In particular, we 
provided detailed briefings for managers, identifying not just 
areas of strength and opportunity, but appropriate peer offices 
for comparisons and sharing best practices. As a result, 
managers were able to learn more about the experiences of their 
career employees, not just at the agency level, but often at 
the individual office and division levels. These steps have led 
to real change in our various program offices.
    In conclusion, currently HUD is engaged in a planning 
process that ensures employee engagement will remain a priority 
in 2016 and beyond. OCHCO is continuing to provide all HUD 
employees with access to HUD's EVS data so they understand the 
opportunities and challenges in their work unit and how the 
changes they make contribute to HUD's ability to meet our 
mission.
    I've served 26 years in the Federal Government, and I know 
from experience that having a committed workforce is essential 
to delivering the best service to the American people. One of 
the most important measures of the quality of a Federal 
workplace is engagement of its employees. As such, while 
managing OCHCO operations, I have also championed leadership 
development, diversity and inclusion, and employee engagement.
    HUD's employees are essential to fulfilling our mission. 
Their success is HUD's success, and I'm proud to serve them and 
the American people.
    Again, thank you for the opportunity to appear before you 
today. I look forward to answering your questions.
    [Prepared statement of Ms. Brooks follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Meadows. Thank you, Ms. Brooks.
    Mr. Stier, you are recognized for 5 minutes.

                     STATEMENT OF MAX STIER

    Mr. Stier. There we go. Thank you so much, Chairman 
Meadows, Ranking Member Connolly, Congressman Mulvaney, for 
having this hearing. It's phenomenal that you're shining a 
spotlight on such an important issue. Thank you also for the 
trips you've been taking to Federal agencies. It's a really 
terrific thing. I've heard great feedback, and building more 
relationships between Congress and the executive branch is 
absolutely vital.
    Ranking Member Connolly, you raised the question in your 
opening statement about is it NASA's mission? I would tell you 
it is not the mission; it's leadership. What the data says 
across the board is you've got a highly committed workforce, 
whatever they're doing, if they're working at GSA or HUD. But 
where you have great leadership, you have engaged employees. 
And when I say great leaders, that really breaks down to a set 
of different issues that includes the ability to communicate 
effectively, get good information out, build trust with the 
employees, and also create a performance culture that's 
absolutely essential.
    And I would note that, again, Chairman Meadows, you cited 
some terrific stats at the front end. There are some good 
stories, some bad stories. There's a lot of room for 
improvement, and I think focusing on agencies--I'm proud to be 
on this panel of all the folks here who are great public 
servants. It's a great way of bringing up the good things that 
our folks are doing that they can spread across government.
    I want to focus my time, however, on making four 
recommendations of things that I think you all can do to help 
improve government management through improving government 
employee engagement. And the first and foremost, that would be 
modernizing the statute that is the basis for the information 
and all the work that you're doing here right now, the Federal 
Employee Viewpoint Survey.
    The statute was part of the 2004 NDAA and now needs to be 
modernized for four different reasons, most important, and that 
is that OPM is in the process right now of rewriting the 
regulations. There are 45 required questions. They're bringing 
that down to 11. A number of the questions that you cited, 
Chairman Meadows, in that beginning, will not have to be 
required going forward if those regulations go through.
    I think it's essential that this committee weigh in on 
making sure that critical information is actually gathered. OPM 
has done a terrific job. This is a change that I think 
unfortunately would unravel some important things, including 
our ability to do the Best Places to Work rankings, because one 
of our three key questions would be removed from the 
regulations as well. So we hope that the committee will look, 
number one, at trying to ensure that the right questions are 
actually included in the survey.
    Number two, the survey needs to be conducted every year by 
the Office of Personnel Management. The statue currently does 
not require that to happen. Kudos, frankly, to OPM under the 
Obama administration, they've chosen to do it every year. 
Clearly, it's a more efficient operation to have one entity do 
the survey for all of government, and it's both cost-effective 
and it enables comparison across agencies, which you lose if 
OPM isn't required to do it for everybody. So that would be the 
second point on change that we think would be really important.
    The third piece which is absolutely vital is getting the 
information out much faster. OPM has accelerated the time, and 
you'll see some nodding heads here about that. The truth of the 
matter is that you ask someone's opinion about what can be 
improved in their agency, and if they don't see anything done 
with that opinion for 6 months or 7 months or 8 months, that's 
a real problem. The only way the agencies can actually do 
anything with this is if that that information is turned around 
a lot faster. And therefore, I think that's a place, again, 
where you could legislatively put some, you know, incentives to 
make sure that it's getting out there much faster, not just the 
agencies, but to the public for organizations like the 
Partnership for Public Service.
    And finally, we think information should actually be 
reported by occupation because that would enable really 
critical comparisons across the board wherever feasible.
    So three other very quick suggestions for improvements that 
this committee could lead the way on, and the second one would 
be making sure that political leaders are actually held 
accountable for addressing engagement.
    So one interesting thing that goes on here, we talk about a 
performance culture. In any other organization I've seen, you 
have the top leadership that has certain expectations that 
cascade down to the rest of the organization. The career 
workforce have performance plan obligations. The political 
workforce doesn't. Some agencies require performance plans for 
political appointees, but that's frankly a rarity. That ought 
to be done across the board so the career workforce can 
actually see how their work lines up against the priorities at 
the top for the agencies. And that should include a focus on 
talent management and employee engagement.
    Number three would be improving the effort to create a 
culture of recognition and improve manager performance. So this 
is an area that I hope I can come back to. But we should be 
switching to probation period presumption that you 
automatically become non-probationary after you come through a 
year. Rather, our view is that a manager should actually have 
to make that choice. And the same goes for someone coming into 
a management position. If we have time at the end here or 
during your questions, I'd love to get into that.
    And then the last piece I would like to focus on is just 
what you're seeing here, the sharing of best practice. To my 
mind, everything that should happen in the Federal Government 
is happening somewhere, just not in all the places it needs to. 
And we need to figure out ways to scale best practice, and 
that's a place your oversight can make a very big difference.
    Thank you very much.
    [Prepared statement of Mr. Stier follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Meadows. Well, I thank each of you for your testimony.
    Max, obviously, some of those recommendations are spot on, 
but I would like to share that in other hearings other than 
those with a title like we have today, employee engagement 
continues to be a big issue.
    After my visit to NASA, I can tell you that we had a few 
others that were here, and I suggested that they get with NASA 
in terms of that employee engagement component to see what they 
are doing. Now, I wrote myself a note so I am going to see the 
next time they come back if they actually got with you.
    But with that, I am going to go ahead and recognize the 
gentleman from South Carolina, Mr. Mulvaney, for 5 minutes for 
his opening questions.
    Mr. Mulvaney. I appreciate that. Thank you, Mr. Chairman.
    Ms. Bailey, I don't want to appear to be beating up on you, 
but I don't know if you are--the coincidence of your being here 
today, we just had a hearing this morning regarding TSA, which 
I think is in your department, isn't it?
    Ms. Bailey. Yes, it is.
    Mr. Mulvaney. Okay. That didn't go very well. They weren't 
very happy. The subject matter of the hearing--were you here 
for that?
    Ms. Bailey. No, sir, I wasn't.
    Mr. Mulvaney. The ----
    Ms. Bailey. No, sir, I was not.
    Mr. Mulvaney. Okay. The subject of the hearing was some of 
the issues that we have been facing with whistleblowers and so 
forth. We had two folks here who feel like they had been 
mistreated, and I had some stories from my district about 
folks--and I am not laying blame because I know that is not 
your department, but that was the subject matter of this 
morning's hearing is how could TSA be run a little bit better. 
And I listened to what the chairman had to say about DHS, what 
you had to say about DHS, and, again, I can't blame you because 
you have only been there for, what, 3 months or something like 
that?
    Ms. Bailey. Yes, sir.
    Mr. Mulvaney. And I get that. So I guess if I wanted to 
skip all of the rhetoric and get down to the bottom line, when 
is it going to get better at DHS? You all are last. When can we 
expect you to, say, be in the top half judged by your own 
employees' feedback on what kind of place this is to work? Top 
half by when?
    Ms. Bailey. I do believe, sir, that with all of the efforts 
that we have actually put in--put forth within this last year 
and actually for the last couple of years, I do think that what 
we're going to see is actual improvement in our EVS scores. 
There is an absolute dedicated commitment. We agree leadership 
matters most. We have--from the Secretary to the Deputy 
Secretary to the Under Secretary and on down, we've made a 
concerted effort to get out and listen to the employees and 
find out ----
    Mr. Mulvaney. And, Ms. Bailey, again, I don't want to cut 
you off, that is fine. That is what we call rhetoric. That is 
not really--everybody says that. Everybody says it is a 
critical thing--everybody says the same thing now. At NASA and 
DOL and HUD, it is actually working. They made it a priority 
and they have listened to the people. Everybody uses words we 
have had town hall meetings with our employees. We get that, 
okay, and that is the right thing to do. But our question is 
when is it actually going to work? All right.
    So let's pretend that we are not a congressional hearing 
and you are a private company. You are working with Google and 
you are the human resources chairman at Google, and everybody 
and Google hates working at Google. And you come into the board 
of directors and you say, okay, here is what we are going to do 
to fix it. We are going to do our town hall meetings and we are 
going to do all these wonderful things. And we turn to you and 
say, okay, when will it get better? What is your answer?
    Ms. Bailey. Well, if I may, sir, everybody does not hate 
coming to work to DHS. In fact, most of the men and women at 
DHS are incredibly proud to work at DHS. When things get better 
actually is whenever we're able to make concrete changes that 
affect their lives positively.
    Mr. Mulvaney. How did you all do on the percentage of 
employees who had a positive thing to say about the honesty and 
integrity of leadership? The average across the whole system is 
50. How did you all do?
    Ms. Bailey. I'm not sure, sir.
    Mr. Mulvaney. Probably worse than 50? Maybe? Probably? I 
don't have the numbers in front of me. But again, you are last, 
and if that is average, it is fair to say that you are last. 
And again, we are not trying to beat up on you. All we want to 
know is when is it going to get better? And just let us know. 
If it is a year, that is fine, if it is 3 years, that is fine, 
but I will let you know the next question is, okay, if you tell 
us it is going to be 3 years, what is the penalty for when it 
isn't? Because at some point--in fact, the gentlemen who were 
here this morning, very insightful, down-to-earth guys, they 
said, look, the only way it is going to get better at TSA is 
when we have accountable leadership. That is it, period, end of 
story.
    So my question is when are we going to have accountable 
leadership? And if we don't, who pays the price? Because right 
now, I think the people who are paying the price, at TSA at 
least, are the employees and the public, which that is a really 
bad group to have to pay the price. The people who are running 
the organization at DHS and TSA are not paying the price. The 
people who work there are paying the price. The people they are 
supposed to serve are paying the price.
    And we are going to try to turn that upside down to where 
the people who pay the price for failure are the people who are 
responsible for failure. At TSA, the people who wait in line to 
get through the security are not the ones who are not doing 
their job. In fact, what we heard today, and if you believe 
them--and I tend to do it--is the folks who actually work there 
on the line. The folks meeting face-to-face with the public are 
not the folks who are not doing their job. It is the folks, no 
offense, at your level and higher who are not doing their job. 
And what we are interested in is trying to create a system 
where the people who are screwing up are the people who pay the 
price and not the people who are sort of the victims or the 
folks who are ending up on the short end of the stick.
    So my question to you before my time and out is, give us a 
date. When will you all get better?
    Ms. Bailey. I believe that we will make incremental 
improvements beginning this year.
    Mr. Mulvaney. Okay. That is great. And I look forward to 
the hearing next year, and if you are not last here, I will be 
the first to congratulate you. I would love to see you in the 
most-improved categories like DOL and HUD.
    I am sorry. I didn't want to focus on the negative, but we 
did just have this hearing this morning. But if you are last 
here or you haven't made--you know, if you are next-to-last, 
this hearing might be less fun than it was this year.
    Thanks very much, Mr. Chairman.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the ranking member of the 
subcommittee, Mr. Connelly, for questions.
    Mr. Connolly. I thank the chair.
    And I think my friend from South Carolina makes some very 
important points, and in listening to his questioning, I 
reflected on the 20 years I spent in the private sector in 
management. And one of the principles certainly that I think is 
applicable is that you have to differentiate between performers 
and nonperformers, people with stellar performance and people 
with adequate or sub-adequate performance. If you treat 
everybody's performance the same when it comes to recognition, 
you are saying to your stellar performers I can come in early 
and stay late, I can donate time on the weekends and it doesn't 
matter. I am going to be treated like Harry Houdini there who 
is a clock-watcher, shows up at 9:00 and leaves promptly at 
5:00 and never volunteers for anything. And as far as 
management is concerned, we are the same.
    And, Mr. Stier, I am looking at a statistic that says 73 
percent of private sector workers believe management recognizes 
superior performance, but in the public sector, only 44 percent 
believes that. That tells me there is a problem if we are going 
to get at what Mr. Mulvaney was talking about, which is, okay, 
give me a time frame where we want to see this improve. Part of 
the solution, it seems to me, or part of the problem is this 
recognition-of-performance problem. Do you want to comment on 
that, Max?
    Mr. Stier. I think you're 100 percent right. I think, 
frankly, you need definitely to be able to recognize good 
performance if you want to encourage that to be the norm. And 
we don't have a culture of performance recognition in 
government, and that's one of the reasons why I think Federal 
employees are risk-averse. They see real downside and no real 
upside. So you have to provide that upside in order to be able 
to get the innovation that you want. Again, I think--not to 
pick on NASA in this context, but that's an area that they 
focus a lot on, and I think that's extremely important.
    If I might also add, it's also very important not to roll 
up too much in the way of the data. So we talk about Department 
of Homeland Security being last. It's a very large organization 
and with multiple subcomponents, some of which are doing 
extremely well like the Coast Guard, which we heard about 
earlier. And so I think you need to disaggregate to some 
degree. Certainly, you need to hold top leadership accountable 
for the whole thing, but there are bright spots at DHS that 
ought to be, you know, recognized, as you're suggesting here.
    But your point is phenomenally important. We have the 
Service to America medals, the CMEs where we find extraordinary 
people. Next week, we have a breakfast--the 4th, the 3rd. I 
hope you'll be there, just awesome stories about what you get 
when government is doing really right.
    Mr. Connolly. I remember once in the private sector working 
with somebody, the head of a big division, and he had a bonus 
pool that year, at bonus time, and he decided to give everyone 
a $250 bonus rather than make the tough decision of Mr. Meadows 
gets one because of stellar performance and Mr. Connelly 
doesn't because we know what. He is a Democrat.
    [Laughter.]
    Mr. Connolly. No, no, that is not true. But if you don't do 
that differentiation, you are saying to everybody, we are going 
to dummy down to the mean, and that is not how to get high 
performance, and it actually has a morale effect on the high 
performers because I feel unappreciated.
    All right. I want to push back just a little bit, Mr. 
Stier, about you are saying, well, it is really about 
leadership more than mission. That is a little hard to believe. 
So, Ms. Leo, how many agencies were kind of put together to 
form NASA? How many agencies do you represent here?
    Ms. Leo. One agency.
    Mr. Connolly. One. You have got a lot of missions? I mean, 
you go to Mars, get a man on the moon--so I was a person--space 
shuttle is over, I mean, are you doing oceanographic research, 
climate change research. I mean, have you got a lot of missions 
that ----
    Ms. Leo. We're doing a plethora of missions.
    Mr. Connolly. Plethora ----
    Ms. Leo. Yes.
    Mr. Connolly.--of missions. Ms. Bailey, I guess you get a 
plethora of missions?
    Ms. Bailey. Yes, sir.
    Mr. Connolly. So you have got TSA, you have got Customs?
    Ms. Bailey. Correct.
    Mr. Connolly. You have got Border Control?
    Ms. Bailey. Yes.
    Mr. Connolly. You have got Secret Service?
    Ms. Bailey. Correct.
    Mr. Connolly. What else did you get? You got 22 agencies 
when you were formed?
    Ms. Bailey. Yes, we have 22 agencies.
    Mr. Connolly. So that is a world of difference than sort of 
the cohesive mission that helps provide an organizing principle 
for NASA.
    Ms. Bailey. Well ----
    Mr. Connolly. Would that be fair?
    Ms. Bailey. That is fair.
    Mr. Connolly. How many employees you got?
    Ms. Bailey. Close to 240,000.
    Mr. Connolly. And how many have you got, Ms. Leo?
    Ms. Leo. About 17,000 civil servants.
    Mr. Connolly. A quarter of a million almost, 17,000.
    Well, I am going to accuse my friend Max Stier of 
oversimplifying. I think DHS has a much more difficult task 
from day one. That is not to let anyone off the hook, but many 
orders of magnitude different than NASA's wonderful success. 
And good for you. I would bet you Ms. Bailey is sitting there 
thinking I wish I had Ms. Leo's problems because trying to 
bring all this together in one happy family when it--and I was 
in the private sector, and we were a contractor to the 
administration trying to figure out this new thing called the 
Department of Homeland Security. I remember looking at the org 
charts and trying to figure out, well, what would go where and 
who would go where and what is the logic of it? And sometimes 
there was logic and sometimes there wasn't. So trying to cohere 
all of that and infuse it with mission and morale and 
productivity is a challenge. And, Max, you want to redeem 
yourself a little bit?
    Mr. Stier. I do. I feel like the ranking member ----
    Mr. Connolly. And then I will ----
    Mr. Stier.--has filibustered here and not offered me an 
opportunity to respond here.
    Mr. Meadows. That would never happen.
    Mr. Connolly We don't filibuster here in the House of 
Representatives, Mr. Stier.
    Mr. Stier. All right.
    Mr. Connolly. We are not the Senate.
    Mr. Stier. All right. Well, so if I might, Mr. Chairman, 
respond?
    Mr. Meadows. Yes, go ahead and respond quickly.
    Mr. Stier. Okay.
    Mr. Meadows. I think we have got votes pretty soon ----
    Mr. Stier. Okay.
    Mr. Meadows.--so that's why I'm ----
    Mr. Stier. Just very quickly in all seriousness, there's no 
question that an organization of 240,000 people is a much 
trickier proposition that an organization of 17,000. However, 
that's a different question about saying whether it's the 
mission or it's the leadership. If you look across this table 
and you ask each of these individuals, are they at their agency 
because they want to be at their agency, my bet is they'll say 
they care about housing, they care about labor, they care 
about, you know, homeland security, they care about the issues 
at NASA.
    The Federal workforce, if you look at the data, says that 
by and large the employees are as mission-committed across the 
board as any organization. Where you see the differential is in 
their perspective of their leadership, not in their mission 
commitment. And that is true, and to your point earlier in the 
private sector, same thing. People who care about NASA issues 
are at NASA. People who care about homeland security, law 
enforcement, whatever issues are at DHS. What differentiates 
their views about their work environment and whether they're 
engaged is whether they believe that their leadership is giving 
them the resources they need to do their jobs well, whether 
they can see from what they do how they're connected to the 
overall mission, whether they, you know--on and on and on. 
That's where the clear--that's what the data shows.
    I'd love to continue this conversation further. The 
turnaround issue is a separate one about the size that DHS has 
to deal with. That's one reason why I say break it into blocks, 
into the subcomponents. Thank you.
    Mr. Meadows. All right. Thank you. The chair recognizes 
himself for a series of questions.
    So I will give you a soft ball. So, Mr. Stier, is it always 
the large agencies that perform the poorest, or have we had 
examples of very small agencies that have had very poor 
rankings in the past, so like Chemical Safety Board?
    Mr. Stier. Well, or, you know, bluntly, I'm--you know, I 
will take a DHS example. Look at the Secret Service, which was 
an organization that actually had very high scores that you've 
seen decline over the course of the last 4 and 5 years. And I 
would posit that that's about leadership again. When you look 
at the--you know, the FDIC and the SEC, they swapped places in 
our rankings. I think that's about leadership. One was on the 
top, one was at the bottom. They flipped it, and that--so 
that's what you see.
    The large--I mean, this is a statistical issue. The larger 
you get, the more close to the mean you're likely to get, and 
so that's going to drive your ----
    Mr. Meadows. Is that why we rank them out as most improved 
for large agencies ----
    Mr. Stier. Absolutely.
    Mr. Meadows.--medium-size, small agencies, et cetera?
    Mr. Stier. Absolutely. And at some point you slice it too 
much so the reality is we keep getting asked, well, we're not--
we're a large agency but we're 240,000, we're not like 15,000, 
but you can only do so much ----
    Mr. Meadows. Right. If you get it down small enough, you 
become the best and worst of the subsets.
    Mr. Stier. Super large, exactly.
    Mr. Meadows. So ----
    Mr. Stier. But I think the bottom line here is that you 
look at the data, leadership is like two-thirds of what's 
driving what we're seeing here. And that's, you know, political 
leadership--and there's things you can do, which is what I've 
suggested, to help encourage the better behaviors.
    Mr. Meadows. All right. So, Ms. Leo, when you are on the 
top, everybody guns for that top position. So how have you 
managed to stay on the top for 4 years running? Because some of 
the most critical surveys in the automobile industry actually 
go towards Lexus and Mercedes-Benz and some of the ones that 
you would think of very high quality because the expectation 
rises along with that. So the expectations are that you are 
going to be number one from here on out. How do you manage that 
expectation and continue to deliver satisfaction to your 
employees?
    Ms. Leo. Well, thank you for the question. We are really 
focused on our trend, and so we want to see our trend continue 
to go up. And so I think--we think that if someone overtakes us 
because their trend goes--they increase more than ours, as long 
as we're still increasing and listening to the feedback of our 
employees, that's a good-news story because ----
    Mr. Meadows. All right.
    Ms. Leo.--it really is about the health of the Federal 
Government.
    Mr. Meadows. Valid point. All right. So, Ms. Rose, your 
energy was obvious in your testimony earlier, so, you know, I 
wish you would get a little energetic.
    [Laughter.]
    Mr. Meadows. But how do you make that energy--obviously you 
have--contagious in the Department of Labor? I mean, we have 
talked about engagement and other things, but how have you been 
able to do that, you know, other than town hall meetings and 
things? Why do they feel like they are important, your rank-
and-file?
    Ms. Rose. I think it's because we're not just listening but 
we're doing as a result of our listening.
    Mr. Meadows. All right. Now, that was the answer that I 
wanted to hear, and so thank you for that response.
    Ms. Rose. You're welcome.
    Mr. Meadows. Because here is the interesting thing is we 
can do a number of surveys, and I used to be in that business. 
You would send the surveys out. If you got the information, you 
checked the box, you did the surveys, and if nothing happened 
with those results, two things happened. One is employee morale 
went down. Two, I guess the participation rates in subsequent 
years went down.
    And so if you are doing that, I saw the recommendation is 
that the feedback gets quicker and then everybody started 
nodding and getting quicker. And I see some people in the 
audience nodding as well when I say that now. How do we do that 
effectively without making it a management--well, without 
making it laborious on management where then we are essentially 
surveying to survey to make sure that we are checking the box? 
And, Max, how do we make it quicker?
    Mr. Stier. I think, one, to recognize OPM has made it 
faster already but there's more that can be done. An example is 
the survey is held open for 3 months. It doesn't need to be 
that way in my view in today's day and age. There's a lot of 
technology and methodology that allows it to be done in a 
shorter time horizon.
    So if you start asking people in the beginning of April, 
which is what's happening right now, surveys in the field, and 
you're not done until the end of June, that already means that 
folks that got their opinion asked in April are waiting forever 
before their information is actually collected.
    I think that, like with a lot of things, this is a place 
where you can legislate and say this is our expectation, that 
this is the private sector benchmark and we expect the 
government to meet it. And if you did that, I think we would 
wind up with a faster turnaround and, as I might add, it should 
be public as well.
    Mr. Meadows. Well, and as you know, we are going to 
continue to highlight this not for the benefit of this 
committee but for the benefit of the workforce, the 2 million 
Federal workers that I continue to hear each and every day of 
both wonderful applause and frustration sometimes going hand-
in-hand, and that is why we are going to do it.
    So let me close before I recognize the gentleman from 
Wisconsin, Mr. Grothman.
    Ms. Bailey, let me come to you, and one is a positive and 
one is a negative. So let me give you the positive first.
    I was able to hear from the Coast Guard here recently, and 
one of the wonderful parts of your group is the Coast Guard and 
their ranking being much higher than some of the others within 
your purview of 22 different agencies. So as we see the Coast 
Guard, one of the things that impressed me was the number of 
volunteer hours that the Coast Guard has put in place right 
here in the District. I mean, the numbers were mind-boggling, 
and in fact, the gentleman I saw had a sunburn because he had 
been out volunteering on a weekend to actually clean up a park 
here in D.C.
    And so I want to just publicly say thank you for--if you 
will pass along my thank you and recognition to the thousands 
of hours, not just with the Coast Guard but that was a 
particular example because it seemed above and beyond in terms 
of the average, but the thousands of volunteer hours that have 
been put forth from the Department of Homeland Security, so 
applause there.
    Ms. Bailey. Thank you.
    Mr. Meadows. My concern--and so we will come to the other 
second part of this--is that in March of this year the 
commissioner for CBP actually told agents, and I will quote 
when it was with regards to President Obama's Executive order, 
he says, well, if you don't like it, it is time to ``look for 
another job.'' Can you imagine in any place where that would be 
encouraging to employee morale?
    Ms. Bailey. Sorry about that. I wasn't sure with the 
button.
    I do understand with regard to that situation. We have had 
conversations with Customs and Border Protection, and they're 
working with them on ways to engage with the workforce with 
regard to the policies that they carry out and to ensure that 
everybody really kind of in some way sees engagement as a team 
sport and ----
    Mr. Meadows. So engagement means engagement at another 
agency?
    Ms. Bailey. No ----
    Mr. Meadows. Because looking for another job that would--
and here is my concern, and so here I want to make the message 
clear. Secret Service, CBP, you know, when we look at some of 
those, the bottom four in terms of the component, we have to 
see improvement there. We get more whistleblowers and concerns 
from people out of those particular components under your 
supervision than any others in the entire Federal workforce. 
And because of that, it lets me know that there is a big 
problem.
    And so do I have your commitment that within the next 120 
days that you will have a plan on how we are going to address 
those four lowest in terms of improvement? Do I have your 
commitment to do that?
    Ms. Bailey. Yes, sir, absolutely, because we are actually--
we have quite a few things underway right now.
    Mr. Meadows. All right. Thank you, Ms. Bailey.
    And I will recognize the gentleman from Wisconsin, Mr. 
Grothman for 5 minutes.
    Mr. Grothman. Sure. I want to talk to Ms. Rose a little 
bit. You are kind of one of the stars of the day because your 
satisfaction scores are some of the biggest increases out here. 
Could you just give us a general background on some of the 
initiatives that you may have started in the last few years 
that are reasons for the big increase in your scores?
    Ms. Rose. Yes, I would be delighted to. The listening 
sessions which started the whole thing were extremely ----
    Mr. Grothman. See, that is the nicest question asked by any 
of them, so ----
    Ms. Rose. Which started the whole thing, and it goes back 
to what Chairman Meadows discussed with me. We gathered data 
and we looked for things that we could do, things we could do 
right away based on employee feedback and suggestions and 
things that were longer term. Employees told us we think you 
could do a better job training supervisors and managers, 
preparing people to be leaders at DOL. So we built a curriculum 
specifically to address that, and we call it Leading at Labor. 
And we just started an Emerging Leaders program, which gives 
people who have aspirations towards leadership roles at the 
Department a chance to start acquiring some skills in that 
direction.
    We did simple things. People said, can we have a microwave 
in the cafeteria? It would be really nice to have someplace to 
warm our food at lunchtime. We put microwaves in the cafeteria. 
We did small things, we did large things, we did long-term 
things, and then we kept telling people what we were doing. You 
said this, we did this. You suggested this, we're looking at 
this. So it's a continual dialogue with our workforce.
    Mr. Grothman. Okay. Is there anything you did in particular 
to address leadership styles among your folks?
    Ms. Rose. The leadership training that I mentioned is 
really focused more on soft skills. Most of our leaders are in 
the positions they're in because they are very good at the 
technical aspects of the work they do. But we decided to offer 
a curriculum that really addressed the soft skills, the soft 
side of leading, how to communicate, how to inspire, how to 
challenge, how to lead.
    Mr. Grothman. Okay. Now, I see on the screen next to me 
that they are calling votes on the Floor. That is what they pay 
us the big bucks for. Mr. Chairman, you want to take over?
    Mr. Meadows. Sure. If the gentleman yields back, the chair 
will recognize Mr. Jordan for a few questions, and then we will 
----
    Mr. Jordan. Thank you, Chairman.
    Mr. Stier, the Partnership for Public Service, so here is 
what I want to know. So we got this survey and we are talking 
to Federal employees and we do it every year and we find out, 
you know, the satisfaction, what they think about their working 
environment and everything else. Is there work that you have 
done that actually looks at it from the taxpayer perspective, 
from citizens who have to interact with these Federal agencies?
    And do you see a correlation between agencies that have 
dissatisfied employees and the satisfaction or lack of 
satisfaction taxpayers and citizens experience when interacting 
with that respective agency?
    Mr. Stier. That's a terrific question, and the answer is 
yes, you do see that correlation. We don't have as much 
research done in the public sector as I'd like to see done, but 
in the private sector, there's a ton of data that show improved 
employee engagement, shows improved performance, increases 
bottom line ----
    Mr. Jordan. Which is what we would all expect.
    Mr. Stier. The VA actually has some good data that shows in 
those hospitals where they have higher employee engagement 
rates, you have higher customer service ----
    Mr. Jordan. Exactly what we would expect.
    Mr. Stier. Yes. It's what you would expect and it's there. 
What's also interesting is, subsequent to our starting the Best 
Places to Work rankings, the Government of Great Britain, 
Australia, Canada, you're now seeing this as a global 
phenomenon where other countries are recognizing that a good 
way to hold leadership accountable is to listen to the 
employees and to focus on employee engagement. So it ----
    Mr. Jordan. So the fact that DHS continues to be at the 
bottom, the worst, employee satisfaction is the lowest at that 
particular agency also most likely means that the taxpayers who 
have to interact with them, as Mr. Mulvaney pointed out today, 
specifically taxpayers have to interact with TSA probably also 
aren't too satisfied with the kind of service they are getting 
from that particular agency?
    Mr. Stier. I would say it is slightly differently, and I'll 
give you the reason why.
    Mr. Jordan. Okay.
    Mr. Stier. I think that there is an opportunity to improve 
taxpayer results by improving the quality of the leadership 
experience of the employees at DHS.
    Mr. Jordan. Well, that is good. I mean ----
    Mr. Stier. Yes.
    Mr. Jordan.--you said it ----
    Mr. Stier. But I say that because I think it's still the 
case--I mean, that's one of the reasons why I'm all for the 
best places to work and not the worst places. I still think 
that the American taxpayer is getting a lot of good service 
from DHS.
    Mr. Jordan. Well ----
    Mr. Stier. There's an opportunity to make it better is my 
only point.
    Mr. Jordan. Well, I am not saying--you said it in ----
    Mr. Stier. Yes.
    Mr. Jordan.--the glass-half-full way. That is fine.
    Mr. Stier. That's the way my mom taught me.
    Mr. Jordan. No, that is good, and I appreciate that. Some 
agencies I would use the glass half full, others I wouldn't. 
And one I wouldn't is the Internal Revenue Service.
    I notice on the list, Department of Treasury, 16 out of 19 
when it comes to the big agencies, and more specifically, an 
agency that every single taxpayer has to interact with, some of 
these--I bet I don't have that many people who have to interact 
with NASA, right, taxpayers, probably just doesn't. But I know 
I have got a bunch of folks I get the privilege to represent 
who have to interact with the Internal Revenue Service. And 
they are in the lower third when it comes to employee work 
satisfaction, and they are going down.
    And meanwhile, we have this same agency, when you talk to 
any taxpayer out there, the answer, lack of answers to 
questions, and you talk to some who have been systematically 
targeted by the Internal Revenue Service, I mean, this to me is 
an important correlation where IRS is way down the list and 
then when you talk to taxpayers, oh, my goodness, when they 
have to deal with that agency, their level of dissatisfaction, 
probably off the charts, too. Do you have any specific 
information or data on that particular one?
    Mr. Stier. Well, first and foremost, you noted, you know, 
IRS is part of Treasury. It's the biggest part of the Treasury 
Department.
    Mr. Jordan. Yes.
    Mr. Stier. It drives the numbers there. You know, one thing 
I would note is we think there's an opportunity to actually --
--
    Mr. Jordan. And I would say this ----
    Mr. Stier. Yes, please.
    Mr. Jordan.--just to interrupt, when you look at the 
numbers of the lower four, DHS being the last, but the lower 
four, two of them are going up in satisfaction of employees. 
IRS is going down even--their employee satisfaction with their 
working environment is going down even faster and lower than 
DHS. So they are moving--if this continues, it will be a couple 
of years where Ms. Bailey won't have to take all the tough 
questions; it will be Mr. Koskinen from the IRS taking it. If 
he is not already gone, he will be the one having to answer the 
tough questions.
    Mr. Stier. Well, two quick things, the one is that we think 
there is an opportunity at the Partnership to do something 
around customer service similar to best places around employee 
engagement, and that would be to create a common customer 
service index for the Federal Government. And that would be a 
way that you would get more of your, you know, better 
correlations, but frankly, it would provide good accountability 
information for government agencies. That's a conversation that 
we would welcome to have. So that'd be terrific. Thank you.
    Mr. Meadows. I thank the gentleman. Ms. Brooks, let me ask 
you one question because obviously you have got a long ways to 
go but you have made unbelievable improvements. So what one 
piece of advice maybe to Ms. Bailey or others who are watching 
saying what one piece of advice if we were to give them one 
thing to improve that you have seen make the biggest difference 
at HUD? What would that be?
    Ms. Brooks. Leadership involvement and looking at the data 
and understanding the data.
    Mr. Meadows. So getting leadership to actually look at the 
data and then actually having interaction with the team?
    Ms. Brooks. Yes.
    Mr. Meadows. Because I have experienced that in a personal 
way with Ms. Leo and the team there at NASA. I mean, we were 
teleconferenced all over. And we didn't have some of the 
leadership in there even though it was a leadership part 
because they wanted to free it up to allow for very candid 
discussions with a Member of Congress.
    But what you are saying is having leadership involved and 
then having it open and transparent where there is no 
retaliation with regards to what the comments that are made?
    Ms. Brooks. Yes. First and foremost, we wanted to make sure 
that we had full participation from employees, so we got the 
participation up so we could have the data. And then we had all 
leadership involved to be able to look at the data and metadata 
available to everyone. And we broke the data down to--for every 
organization within HUD and had employees at every level to be 
able to look at the data and broke it down into engagement 
plans for every organization.
    Mr. Meadows. Well ----
    Ms. Brooks. And I think that was the biggest gain for our 
organization was to be able to look at the data, understand it, 
and act on it.
    Mr. Meadows. Well, thank you, Ms. Brooks. I want to just 
say thank you so much. Does the ranking member have a comment?
    Mr. Connolly. Well, thank you, Mr. Chairman.
    I just wanted to follow up a little bit on the IRS, Mr. 
Stier, because, presumably, if your agency were called before 
Congress on real and bogus allegations for dozens of times, if 
over $1 billion of your budget was slashed, if people couldn't 
fill vacancies even through attrition because of those 
cutbacks, if your technology was getting more and more ancient 
every day and you have, you know, hard drive collapses and all 
kinds of problems integrating systems and so forth, and you 
couldn't even meet customer satisfaction standards because of 
inadequate resources, presumably, that might have an impact on 
your morale and your productivity every day and your job 
satisfaction if you worked for that agency. Fair enough?
    Mr. Meadows. I think a smile says all it needs to say. I 
thank the ranking member.
    Mr. Connolly. I have got to go vote.
    Mr. Meadows. I am thanking the ranking member.
    Mr. Connolly. But there can't just be one point of view 
about IRS around here, and as long as I am here, there won't 
be.
    Mr. Stier. And I think it's important to be focused on the 
employee engagement because all of us benefit with more 
engagement that way.
    Mr. Meadows. And I do want to stress that ----
    Mr. Stier. Thank you.
    Mr. Meadows.--I have had the opportunity to meet with IRS 
employees and found them very engaging and willing to look for 
real responses, and so on that, I think it gets back to 
management again. And all of you have said that.
    And so we are going to give you a few additional questions. 
We are going to vote right now, and that way we don't hold you. 
So we are going to go ahead and finish up this hearing.
    But I want to say thank you. Thank you for not only being 
here today, thank you for your testimony, but thank you to the 
great Federal workers that are out there that are serving the 
American taxpayer each and every day.
    If there is no further business, without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 3:20 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
